Case: 1:19-cv-00014-MPM-DAS Doc #: 29 Filed: 03/13/19 1 of 3 PageID #: 617
61a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF MISSISSIPPI
ABERDEEN DIVISION
ETHAN HOGGATT, ET AL.

PLAINTIFFS

v.

No. 1:19-CV-14-M-D

ALLSTATE INSURANCE, ET AL.

DEFENDANTS
ORDER

This cause comes before the Court on Plaintiff’s Emergency Motion to Remand to State
Court [Doc. #23]. The Court, having reviewed the submissions of the parties along with relevant
authority, is now prepared to rule.
A. Background
On December 12, 2018, Plaintiffs, Ethan Hoggatt and Eric Hoggatt, DDS, initiated this suit
in the Circuit Court of Monroe County, Mississippi—Case No. 2018-422-GM. In their state
complaint, Plaintiffs brought various claims against the Defendants, including: “insurance fraud”,
“wire and mail fraud”, “attempted extortion by use of the United States Mails”, “Bad Faith”,
“Gross Negligence”, and “Wantonness causing Intentional, wholly unnecessary, and Egregious
Infliction of Mental Distress.” Additionally, the state complaint alleges that defendants, including
Allstate, violated The Racketeer Influenced and Corrupt Organizations Act (“RICO”). [Doc. #2].
On December 12, 2018, the Circuit Clerk of Monroe County issued a summons as to each
of the Defendants. On January 15, 2019, Defendants Andy Dyson and Suzanne Hand—who were
served with process on or around December 17, 2018—removed the case to the District Court for
the Northern District of Mississippi, pursuant to 28 U.S.C. § 1441. According to their notice of
removal—filed approximately 29 days after being served with process—Defendants Dyson and
Hand removed this case because “the Plaintiff’s Complaint alleges claims based upon federal law,

1

APPENDIX I

Case: 1:19-cv-00014-MPM-DAS Doc #: 29 Filed: 03/13/19 2 of 3 PageID #: 618
62a
including violations of federal RICO statutes, 18 U.S.C. §§1961 et seq., based upon alleged
predicate acts constituting alleged violations of various federal laws and other claims requiring
interpretation of the Constitution and other federal laws.” [Doc. #1].
On February 22, 2019 Plaintiff Eric Hoggatt filed the present motion. [Doc. #23].
B. Discussion
“On a motion to remand, ‘[t]he removing party bears the burden of showing that federal
jurisdiction exists and that removal was proper.’” Barker v. Hercules Offshore, Inc., 713 F.3d 208,
212 (5th Cir. 2013) (citing Manguno v. Prudential Prop. & Cas. Inc. Co., 276 F.3d 720, 722 (5th
Cir. 2002)). Pursuant to 28 U.S.C. § 1446(b), a defendant must file notice of removal within thirty
days after being served with a copy of the initial pleading.
In the present case, removal was timely. Approximately 29 days after being served with
process—well within the 30-day time limit for removal—Defendant Dyson and Defendant Hand
filed their notice of removal. The removal was timely.
Plaintiff, in her motion to remand, argues that removal is improper because state courts
have concurrent jurisdiction over RICO claims and that state courts are fully competent to
adjudicate such claims. The Court does not question a state court’s ability to adjudicate these
claims and is fully convinced of their ability to do so. Additionally, the Court notes that “[t]he
Supreme Court has clearly held that both state and federal courts have jurisdiction over federal
civil RICO claims.” Lichtenberger v. Prudential-Bache Sec., Inc., 737 F.Supp. 43, 44, (S.D. Tex.
1990) (citing Tafflin v. Levitt, 493 U.S. 455, 110 S.Ct. 792, 799, 107 L.Ed.2d 887 (1990)).
However, “any civil action brought in a State Court of which the district courts of the
United States have original jurisdiction, may be removed by the defendant or the defendants.” 28
U.S.C. § 1441(a). District courts “have original jurisdiction of all civil actions arising under the

2

Case: 1:19-cv-00014-MPM-DAS Doc #: 29 Filed: 03/13/19 3 of 3 PageID #: 619
63a
Constitution, laws, or treaties of the United States.” 28 U.S.C. § 1331. Additionally, the Fifth
Circuit has held that unless “there is an express declaration by Congress to the contrary, all types
of civil actions, in which there is concurrent original jurisdiction in both federal and state courts,
are removable.” Baldwin v. Sears, Roebuck & Co., 667 F.2d 458, 460 (5th Cir. 1982).
This Court has original jurisdiction over this cause of action because Plaintiffs’ RICO
claims arise under the laws of the United States. See 18 U.S.C. § 1961. Furthermore, the Court
finds no express declaration by Congress to suggest that RICO claims are nonremovable.
The Court, therefore, finds that Defendants’ timely removal of this cause of action on
grounds of federal jurisdiction was proper.
C. Conclusion
For the reasons discussed above, Plaintiff’s Motion to Remand to State Court [Doc. 23] is
DENIED.
SO ORDERED, this the 13th day of March, 2019.
/s/ MICHAEL P. MILLS
UNITED STATES DISTRICT JUDGE
NORTHERN DISTRICT OF MISSISSIPPI

APPENDIX I

3

